No. 20-1129
IN THE

upreitte Taut of tIp Unita ftites
SCOTT PHILLIP FLYNN,
Petitioner,
v.
UNITED STATES,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT

BRIEF OF AMICUS CURIAE
NEW YORK COUNCIL OF DEFENSE LAWYERS
IN SUPPORT OF PETITIONER

JEREMY H. TEMKIN
A. DENNIS DILLON

HARRY SANDICK

MORVILLO ABRAMOWITZ

PATTERSON BELKNAP WEBB
& TYLER LLP

GRAND IASON & ANELLO

565 Fifth Avenue
New York, NY 10017
(212) 856-9600
jtemkin@maglaw.com

Counsel of Record
P.C.

1133 Avenue of the Americas
New York, NY 10036
(212) 336-2000
hsandick@pbwt.com

Counsel for Amicus Curiae

303185

1

TABLE OF CONTENTS
Page
INTEREST OF AMICUS CURIAE

1

SUMMARY OF THE ARGUMENT

2

ARGUMENT

3

I. The "Klein Conspiracy"'Doctrine Warrants
Review By This Court

3

Klein Was Founded On A Strained
Reading Of Section 371 And This
Court's Precedent

5

The Klein Conspiracy Doctrine Is
Not Supported By The Statutory
Text Or Conventional Rules Of
Statutory Interpretation

9

The Klein Conspiracy Doctrine Is
Unconstitutionally Vague, And By
Creating A Common-Law Offense,
Violates The Separation Of Powers

13

Klein Is Inconsistent With This
Court's Recent Precedent

17

The Court Should Grant Certiorari
To Adopt A Limiting Construction
Of Section 371's Defraud Clause

21

11

II. The Doctrine Of Stare Decisis Does Not
Bar Review Of The Klein Conspiracy
Doctrine

24

CONCLUSION

26

111

TABLE OF AUTHORITIES
Page(s)
Cases
Arthur Andersen LLP v. United States,
544 U.S. 696 (2005)

19

Azar v. Allina Health Servs.,
139 S. Ct. 1804 (2019)

16

Cleveland v. United States,
531 U.S. 12 (2000)
Curley v. United States,
130 F. 1 (1st Cir. 1904)

11, 12, 18

16

Dennis v. United States,
384 U.S. 855 (1966)

8, 13

Glasser v. United States,
315 U.S. 60 (1942)

7

Haas v. Henckel,
216 U.S. 462 (1910)
Hammerschmidt v. United States,
265 U.S. 182 (1924)

4, 5

passim

Janus v. Am. Fed 'n of State, Cty., & Mun. Emps.,
17, 24, 25
138 S. Ct. 2448 (2018)
Johnson v. United States,
576 U.S. 591 (2015)

4

iv
Kelly v. United States,
140 S. Ct. 1565 (2020)
Kolender v. Lawson,
461 U.S. 352 (1983)
Liparota v. United States,
471 U.S. 419 (1985)

passim

4, 14

14

Marinello v. United States,
138 S. Ct. 1101 (2018)

passim

McDonnell v. United States,
136 S. Ct. 2355 (2016)

18, 21

McNally v. United States,
483 U.S. 350 (1987)
Morissette v. United States,
342 U.S. 246 (1952)
Nat'l Fed'n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012)
Neder v. United States,
527 U.S. 1 (1999)
Ocasio v. United States,
136 S. Ct. 1423 (2016)
Skilling v. United States,
561 U.S. 358 (2010)
United States v. Cohn,
270 U.S. 339 (1926)

passim

11

9

9, 10

25

passim

7

United States v. Coplan,
703 F.3d 46 (2d Cir. 2012)

passim

United States v. Davis,
139 S. Ct. 2319 (2019)

14

United States v. Gradwell,
243 U.S. 476 (1917)

6, 14

United States v. Hirsch,
100 U.S. 33 (1879)

5, 18

United States v. Johnson,
383 U.S. 169 (1966)
United States v. Klein,
247 F.2d 908 (2d Cir. 1957)

7
2, 4, 9, 10

United States v. Lanier,
520 U.S. 259 (1997)

15

United States v. Santos,
553 U.S. 507 (2008)

10

United States v. Sun-Diamond Growers of Cal.,
526 U.S. 398 (1999)

26

United States v. Tanner,
483 U.S. 107 (1987)

22

United States v. Wiltberger,
18 U.S. 76 (1820)

14

Universal Health Servs., Inc. v. United States,
136 S. Ct. 1989 (2016)

16

vi

Statutes
2 U.S.C. § 285b

11

18 U.S.C. § 371

2

18 U.S.C. § 1341

20

18 U.S.C. § 1343

20

26 U.S.C. § 7212

22

Act of June 25, 1948, 62 Stat. 701

11

Treatises
Singer & Singer, Sutherland on Statutory
Construction (7th ed. 2008)

11

INTEREST OF AMICUS CURIAE
The New York Council of Defense Lawyers
("NYCDL") submits this amicus curiae brief in
support of Scott Phillip Flynn's petition for a writ of
certiorari.' NYCDL is a not-for-profit professional
association of approximately 350 lawyers, including
many former federal prosecutors, whose principal
area of practice is the defense of criminal cases in the
federal courts of New York. NYCDL's mission
includes protecting the individual rights guaranteed
by the Constitution, enhancing the quality of defense
representation, taking positions on important defense
issues, and promoting the proper administration of
criminal justice. NYCDL offers the Court the
perspective of experienced practitioners who
regularly handle some of the most complex and
significant criminal cases in the federal courts.
NYCDL has a particular interest in this case
because NYCDL's core concerns include combatting
the unwarranted extension of federal criminal
statutes, promoting clear standards for the imposition
of criminal liability, and deterring arbitrary
enforcement by prosecutors.

1 The parties have been provided the required notice and have
consented to the filing of this amicus brief. No counsel for a
party authored this brief in whole or in part, and no party,
counsel for a party, or any other person except for amicus curiae,
its members, or its counsel made a monetary contribution
intended to fund the briefs preparation or submission.

2

SUMMARY OF THE ARGUMENT
The scope of the "defraud clause" of Title 18,
United States Code, Section 371 should be limited to
cases in which the defendant conspired with others to
defraud the United States of money or property, or
where there is a nexus between the defendant's
actions and a particular administrative proceeding.
Either interpretation is consistent with the text of the
statute and this Court's interpretation of similar
offenses. See Kelly v. United States, 140 S. Ct. 1565,
1572-74 (2020); Marinello v. United States, 138 S. Ct.
1101,1109-10 (2018).
Petitioner's prosecution was predicated on the
so-called Klein conspiracy doctrine, which interprets
the defraud clause of Section 371 to prohibit any
interference with the operations of the federal
government though deceptive conduct. United States
v. Klein, 247 F.2d 908,916 (2d Cir. 1957). The Klein
conspiracy doctrine is based on an overbroad reading
of this Court's precedent, and it only remains in place
because this Court has not squarely addressed it.
Indeed, the United States Court of Appeals for the
Second Circuit, which originated the doctrine, has
now recognized that it creates "a common law crime,"
but felt bound by its precedent and this Court's
decisions, which serve as a flawed foundation for
Klein. United States v. Coplan, 703 F.3d 46, 60-62
(2d Cir. 2012). This case offers the Court an
opportunity to address these concerns and clarify the

3

scope of this important aspect of federal conspiracy
law.
Narrower construction of the defraud clause is
necessary to avoid the constitutional and statutoryinterpretation problems created when, as here, a
prosecution is predicated on an expansive and
indeterminate judicial construction that fails to
provide fair notice and presents substantial
opportunities for prosecutorial abuse. Under the
broad reading of Section 371 applied by the Eighth
Circuit and other Circuit Courts of Appeals, virtually
any deceptive conduct that might make it marginally
more difficult for the IRS or another government
agency to fulfill routine tasks could be prosecuted as
a felony. It also encourages prosecutorial overreach,
particularly in the federal courts in which amicus's
members practice.
This Court should grant certiorari and limit
the scope of the defraud clause of Section 371 at it has
done in the past when faced with statutes that would
otherwise be "impermissibly vague."
See, e.g.,
Skilling v. United States, 561 U.S. 358, 405, 409
(2010); see also Marinello, 138 S. Ct. at 1109-10.
ARGUMENT
I.

The "Klein Conspiracy" Doctrine
Warrants Review By This Court.

This Court has repeatedly held that it is a
violation of the Due Process Clause to "tak[e] away

4

someone's life, liberty, or property under a criminal
law so vague that it fails to give ordinary people fair
notice of the conduct it punishes, or so standardless
that it invites arbitrary enforcement." Johnson v.
United States, 576 U.S. 591, 595 (2015) (citing
Kolender v. Lawson, 461 U.S. 352, 357-58 (1983)); see,
e.g., Skilling, 561 U.S. at 402-04.
The Klein conspiracy doctrine cannot
withstand scrutiny under this standard. Ostensibly
predicated on this Court's early 20th-century
precedents, the Klein conspiracy doctrine permits
prosecution not only of conventional attempts to
"defraud the United States" of money or property (as
the statute's plain text suggests), but also
"interfere [nce] with or obstruct[ion of] one of its lawful
governmental functions by deceit, craft or trickery, or
at least by means that are dishonest." United States
v. Klein, 247 F.2d 908, 916 (2d Cir. 1957) (quoting
Hammerschmidt v. United States, 265 U.S. 182, 188
(1924)). That additional prohibition, however, is
nowhere to be found in the text of the statute.
The doctrine's origins lie in overly broad
language from this Court's decisions in Haas v.
Henckel, 216 U.S. 462 (1910), and Hammerschmidt v.
United States that lower courts have applied to
expand federal fraud liability to an unreasonable
extent. It results in a common-law offense that is
unconstitutionally vague, contrary to basic principles
of statutory interpretation, antithetical to separation
of powers principles, and inconsistent with this

5

Court's more recent jurisprudence. The Court should
grant certiorari either to preclude use of the defraud
clause where the alleged conspiracy does not
implicate money or property or to consider a limiting
construction that would rein in the potential for
prosecutorial abuse of this important statute.
A.

Klein Was Founded On A Strained
Reading Of Section 371 And This
Court's Precedent.

When this Court first interpreted the
predecessor to Section 371 almost a century and a half
ago, it highlighted the centrality of attempts to cheat
the United States of a money or property interest in
the Court's understanding of the term "defraud." See
United States v. Hirsch, 100 U.S. 33, 35 (1879) ("The
fraud mentioned is any fraud against [the United
States]. It may be against the coin, or consist in
cheating the government of its land or other
property."). Thirty years later, considering a case in
which a government statistician conspired to give the
defendant confidential information related to grain
futures, the Court characterized the defraud clause
more expansively. See Haas, 216 U.S. at 479. The
government in that case seemingly proceeded at least
in part on a theory that divulging the confidential
reports in question "would deprive these reports of
most of their value to the public." Id. The Court found
this theory satisfied the financial loss requirement,
but went on to state that even if it had not, the
defraud clause "is broad enough in its terms to include

6

any conspiracy for the purpose of impairing,
obstructing, or defeating the lawful function of any
department of government." Id. Because the Court
concluded that the government had suffered a
financial loss, its statement regarding the scope of the
defraud clause, while an apparent endorsement of
earlier lower court decisions, was entirely
unnecessary to its holding.
Soon afterward, this Court began to question
Haas's expansive gloss on the defraud clause. In
United States v. Gradwell, the defendants were
charged with conspiring to defraud the United States
by bribing voters in two congressional elections. 243
U.S. 476, 478 (1917). The government argued that
because it has "the right to honest, free, and fair
elections," a conspiracy to bribe voters would be a
"denial and defeat of this right, and . . . therefore is a
scheme to defraud the United States." Id. at 480. In
rejecting this theory, the Court stated that "it would
be a strained and unreasonable construction to apply
[the conspiracy statute], originally a law for the
protection of the revenue" to a conspiracy to bribe
voters in a congressional election. Id. at 485.
A few years later, in Hammerschmidt v. United
States, the Court again addressed the reach of the
defraud clause. The government, citing Haas's
dictum, argued that an agreement to defy the draft
openly could be prosecuted as a "conspiracy to defraud
the United States." 265 U.S. at 185-86. The Court
rejected that theory and reversed the conviction,

commenting that defrauding the government "means
primarily to cheat the government out of property or
money, but it also means to interfere with or obstruct
one of its lawful governmental functions by deceit,
craft or trickery, or at least by means that are
dishonest." Id. at 188. However, because the Court
ruled that the open defiance was not fraudulent, it
had no cause to speculate about what conduct
hypothetically might satisfy the statute.
The
statement was therefore dictum, yet it became the
predicate of the Klein doctrine.2

2 While the Court has commented on its broad interpretation of
Section 371 in Hammerschmidt from time to time, see, e.g.,
McNally u. United States, 483 U.S. 350, 359 n.8 (1987)
(distinguishing mail/wire fraud and fraud under Section 371);
United States v. Johnson, 383 U.S. 169, 172 & n.3 (1966) (noting
petitioner had not questioned the broad scope of defraud clause
on certiorari); United States v. Cohn, 270 U.S. 339, 346-47 (1926)
(distinguishing statute barring fraudulent claims for payment
from government from the predecessor to Section 371), it has
rarely addressed the scope of Section 371's defraud clause.
Those instances have involved application of Section 371 to facts
well outside the conspiracies to defraud the IRS that are the core
of the Klein doctrine. In Glasser v. United States, for example,
the Court noted in passing that the indictment of the defendants
for their role in a Prohibition-era bribery scheme fell within the
defraud clause. 315 U.S. 60, 66 (1942) (citing Hammerschmidt).
In that case, however, the Court did not undertake a detailed
review of the proper scope of the defraud clause, and the case
ultimately turned on the fairness of the trial and the composition
of the jury.

8

Despite this shaky foundation, in the wake of
Haas and Hammerschmidt, lower courts—prior to
this Court's recent case law confining criminal laws to
their statutory text—seized upon this Court's broad
language to expand liability under Section 371. That
process culminated in United States v. Klein, in which
the Second Circuit, considering a case in which the
defendants had been acquitted of tax evasion but
convicted under Section 371's defraud clause, held
that the latter covers "not only . . . the cheating of the
government out of property or money, but 'also means
to interfere with or obstiuct one of its lawful
governmental functions by deceit, craft or trickery, or
In Dennis v. United States, 384 U.S. 855 (1966), the defendants
were union leaders who submitted affidavits falsely denying
their membership in the Communist party, in order to gain
access to the services and facilities of the National Labor
Relations Board ("NLRB"). The Court upheld the use of the
defraud clause, holding that the scheme in question went beyond
the making of false statements in violation of 18 U.S.C. § 1001.
Id. at 860. Thus, the defendants were not charged with merely
impeding or obstructing the government's function, but with
having lied to the NLRB to gain access to services and facilities
that were not otherwise available to them. Id. at 862. While the
Court quoted Haas's dictum regarding the possible scope of the
defraud clause and cited Hammerschmidt without discussion, id.
at 861, it did not address the nature of the interest that was the
object of the scheme. Cf. Kelly v. United States, 140 S. Ct. 1565,
1573 (2020) (stating that government "employees' services would
qualify as an economic loss to a [government entity], sufficient
to meet the federal fraud statutes' property requirement").
Ultimately, while the Court found that the union leaders were
properly charged with having "defraud[ed]" the government, it
reversed on other grounds. Id. at 861, 875.

9

at least by means that are dishonest."' 247 F.2d at 916
(quoting Hammerschmidt, 265 U.S. at 188). Yet, as
described in greater detail below, the Second Circuit
has now acknowledged that recent decisions by this
Court have made continued adherence to Klein
justifiable only by resorting to the doctrine of stare
decisis, despite the fact that this Court has never
explicitly reviewed the Klein doctrine. This call for
guidance from the lower courts makes this case a
particularly suitable vehicle for review.
B.
The Klein Conspiracy Doctrine Is
Not Supported By The Statutory Text Or
Conventional Rules Of Statutory
Interpretation.
"[T]he best evidence of Congress's intent is the
statutory text." Nat'l Fed'n of Indep. Bus. v. Sebelius,
567 U.S. 519, 544 (2012). Where Congress does not
define a term, as it did not define "defraud" here, if
the term has "accumulated settled meaning under the
common law, a court must infer . . . that Congress
means to incorporate the established meaning of
these terms." Neder v. United States, 527 U.S. 1, 21
(1999) (quotation marks, modification, and citation
omitted).
The rule of lenity acts in concert with this
principle of interpretation, and the constitutional
concerns described in greater detail below, by
ensuring that courts do not effectively create new
crimes through expansive interpretations of criminal

10

statutes. That rule "requires ambiguous criminal
laws to be interpreted in favor of the defendants
subjected to them." United States v. Santos, 553 U.S.
507, 514 (2008). In other words, "the tie must go to
the defendant." Id.
The Klein conspiracy doctrine runs afoul of
each of these principles of statutory interpretation.
First and foremost, the statute nowhere refers
to "obstruct[ing]" or "interfer [ing] with" the
government, let alone administration of the tax code.
Klein, 247 F.2d at 916. Nor did Congress anywhere
define "to defraud," which means that courts must
presume the term takes on the prevailing
"accumulated settled meaning" at the time the
statute was adopted. Neder, 527 U.S. at 3 (quotation
marks and citation omitted). And as this court has
explained, the phrase "to defraud" commonly meant
to deprive another of property rights through
deceptive means. See McNally, 483 U.S. at 358
(citing Hammerschmidt, 265 U.S. at 188); see also
Coplan, 703 F.3d at 59. Similarly, in Neder, this
Court relied on the traditional meaning of the
statutory language to hold that the federal mail and
wire fraud statutes required proof of a material
misrepresentation as was required to establish fraud
at common law. 527 U.S. at 23. The same reasoning
applies here: without any indication that Congress
meant to criminalize all conduct that would tend to
"interfere" with the IRS's administration of the tax
code, it must be presumed the statute does not reach

11

the type of conduct not encompassed in the scope of
fraud at common law.3
Even if the term "to defraud" were susceptible
to broad interpretation, the rule of lenity would
require a narrower construction. In Cleveland v.
United States, the Court considered whether the
petitioners, in lying to the State of Louisiana in order
to win video poker licenses, had defrauded the state
government of "property" in the form of those licenses.
531 U.S. 12, 17-18 (2000). The Court refused to
endorse a broad construction of "property" for
purposes of the mail and wire fraud statutes, and
That the predecessor statute to Section 371 was recodified in
1948 does not indicate that Congress intended to adopt the
expansive gloss that Haas and Hammerschmidt have been read
as implementing. That codification was part of a broader
recodification of federal criminal statutes in Title 18. See Act of
June 25, 1948, ch. 645, 62 Stat. 701. With respect to Section 371,
that law harmonized two conspiracy provisions previously
codified separately. When Congress simply recodifies a statute,
the relevant Congressional intent is the intent at the time when
the statute originally was passed. See 2 U.S.C. § 285b (stating
that recodified statutes are intended to "conforma to the
understood policy, intent, and purpose of the Congress in the
original enactments [of the statute then recodified]"); Morissette
v. United States, 342 U.S. 246, 266-67 (1952) (finding, with
respect to another statute included in same recodification, "[w]e
find no other purpose in the 1948 re-enactment than to collect
from scattered sources crimes so kindred as to belong in one
category"); see also 2B Singer & Singer, Sutherland on Statutory
Construction § 49.8 (7th ed. 2008) (reenactment canon "does not
apply where a legislature paid no attention to [a prior]
interpretation during reenactment").
3

12

"reject[ed] the Government's theories of property
rights not simply because they stray from traditional
concepts of property," but also because a contrary
reading would "approve a sweeping expansion of
federal criminal jurisdiction in the absence of a clear
statement by Congress." Id. at 24. The Klein
conspiracy doctrine constitutes just such an
expansion.
Consistent with these principles, almost a
decade ago, the United States Court of Appeals for the
Second Circuit, the court that initially decided Klein,
cast doubt on that decision, effectively concluding
that it was unsupportable in light of this Court's more
recent decisional law, such as Skilling. Coplan, 703
F.3d at 60-62. In Coplan, the Second Circuit
analyzed the history of Section 371 and explained
that Congress likely intended the word "defraud" to
incorporate the common-law definition of that termnamely, "to deprive another of property by dishonest
means." Id. at 59. Indeed, in Coplan the government
made no attempt to defend the substantive validity of
the Klein conspiracy doctrine and "rest[ed] entirely"
on a "stare decisis defense." Id. at 61. The court
concluded that "considerable judicial skepticism" was
warranted because "the Government appears to
implicitly concede that the Klein conspiracy doctrine
is a common-law crime, created by the courts rather
than Congress." Id.
Notwithstanding these "infirmities in the
history and deployment of the statute" and this

13

Court's more recent decision in Skilling, the Second
Circuit relied on the recapitulation of Haas's dictum
in Dennis v. United States, and the weight of its case
law to conclude that "such arguments are properly
directed to a higher authority." 703 F.3d at 61-62.
Thus, the court held that it was • "bound to follow the
dictates of Supreme Court precedents, no matter how
persuasive we find the arguments for breaking loose
from the moorings of established judicial norms." Id.
at 62.
And in this case, while not discussing the Klein
doctrine in the same detail as the Second Circuit, the
Eighth Circuit nevertheless agreed with Coplan's
conclusion that this argument must be directed to a
"higher authority": this Court. App. 9a. This Court
should grant certiorari to address the viability of
Klein and constrain the Unwarranted expansion of the
criminal law that it entails.
C. The Klein Conspiracy Doctrine Is
Unconstitutionally Vague, And By
Creating A Common-Law Offense,
Violates The Separation Of Powers.
Hammerschmidt's commentary on the scope of
the defraud clause, as applied by Klein, also has
resulted in an unconstitutionally vague statute,
necessitating this Court's intervention.
The vagueness doctrine protects due process
rights in two complementary ways. First, it ensures
that penal statutes have "sufficient definiteness that

14

ordinary people can understand what conduct is
prohibited." Shilling, 561 U.S. at 402 (internal
quotation marks and modifications omitted); see
United States v. Davis, 139 S. Ct. 2319, 2325 (2019)
("Vague laws contravene the first essential of due
process of law that statutes must give people of
common intelligence fair notice of what the law
demands of them.") (quotation marks and citation
omitted). Second, the doctrine is intended to avoid a
"standardless sweep that allows policemen,
prosecutors, and juries to pursue their personal
predilections." Kolender, 461 U.S. at 358 (quotation
marks and citation omitted); see Davis, 139 S. Ct. at
2325.
In the same vein, the vagueness doctrine also
preserves "the Constitution's separation of powers
and the democratic self-governance it aims to
protect," by ensuring that only the elected
representatives of Congress determine whether a
given act is a crime. Davis, 139 S. Ct. at 2325; see
Marinello, 138 S. Ct. at 1106. That same principle is
expressed in this Court's oft-repeated warning that
"there are no common-law offenses against the United
States." Gradwell, 243 U.S. at 485. Rather, because
"the power of punishment is vested in the legislative,
not in the judicial department," United States v.
Wiltberger, 18 U.S. 76, 95 (1820) (Marshall, C.J.),
federal crimes are "solely creatures of statute,"
Liparota v. United States, 471 U.S. 419, 424 (1985).

15

Klein's broad construction of the defraud clause
implicates these constitutional concerns.
First, by permitting any "dishonest" or even
"craft[y]" conduct to be swept up in the statute, Klein
permits federal prosecutors to pursue felony
conspiracy charges based on relatively commonplace
conduct. For example, it could reach the type of
conduct the Court cited in Marinello as necessitating
constraint on the scope of 26 U.S.C. § 7212(a). It can
also be used to attack tax planning strategies or other
conduct that, while lawful, complicate the IRS's task
of administering the Revenue Code. See Marinello,
138 S. Ct. at 1108. This was the precise issue that the
Second Circuit found cause for concern in Coplan, but
felt constrained from addressing based on stare
decisis. See 703 F.3d at 62.
Second, the Klein conspiracy doctrine runs
afoul of the separation of powers by creating, in
essence, a common-law offense. "Federal crimes are
defined by Congress, not the court," United States v.
Lanier, 520 U.S. 259, 267 n.6 (1997), and the
expansion of the well-understood term "defraud" to
any "dishonest" conduct risks criminalizing by
judicial fiat acts not foreseen by Congress. Section
371 states only that "defraud[ing] the United States"
government is an offense. The term "fraud" has long
been understood to require an attempt to obtain
money or property through dishonest means.
Indeed, citing
McNally, 483 U.S. at 358-60.
Hammerschmidt, the Court confirmed that the

16

heartland of fraud is deprivation of a property right
by trick. Id. at 358.
The issue in McNally was the scope of the mail
and wire fraud statutes. In a footnote, however, the
Court commented that prior decisions had
interpreted Section 371's defraud clause as reaching
conduct not implicating money or property, and
attributed this broad construction to the federal
government's need to protect itself in order to fulfill
its mission of "administering itself in the interests of
the public." Id. at 359 n.8 (quoting Curley v. United
StateS, 130 F. 1 (1st Cir. 1904)).
But as the Second Circuit pointed out in United
States v. Coplan, McNally's invocation of a distinction
between the scope of a conspiracy to defraud the
government and fraud committed against a private
person was dictum that "appears to rest on a policy
judgment—that, in the nature of things, government
interests justify broader protection [than] the
interests of private parties—rather than one any
principle of statutory interpretation." 703 F.3d at 61;
see also id. ("The Government thus appears implicitly
to concede that the Klein conspiracy is a common-law
crime, created by the courts rather than by Congress.
That fact alone warrants considerable judicial
skepticism."). As this Court has repeatedly said,
"policy arguments cannot supersede the clear
statutory text." Universal Health Servs., Inc. v.
United States, 136 S. Ct. 1989, 2002 (2016); see Azar
v. Allina Health Servs., 139 S. Ct. 1804, 1815 (2019)

17

("[C]ourts aren't free to rewrite clear statutes under
the banner of [their] own policy concerns.").
To avoid ending up on this "vagueness shoal,"
Skilling, 561 U.S. at 368, and permitting continued
enforcement of a common-law crime in violation of the
separation of powers, the defraud clause should be
cabined by a narrower interpretation.
D.

Klein Is Inconsistent With This
Court's Recent Precedent.

In the decade since Coplan, this Court's
jurisprudence has rendered the Klein conspiracy
doctrine an unjustifiable outlier among federal fraud
and obstruction offenses. Cf. Janus v. Am. Fed'n of
State, Cty., & Mum. Emps., 138 S. Ct. 2448, 2482-84,
2486 (2018) (overruling prior decision in part on basis
that subsequent developments in First Amendment
jurisprudence had rendered it inconsistent with those
later cases). Thus, the Court should exercise its
"higher authority," Coplan, 703 F.3d at 61, to address
the viability of Klein.
In a litany of recent decisions, this Court has
cabined and constrained federal criminal statutes—
especially fraud and obstruction statutes. In doing so,
the Court has repeatedly applied principles of due
process and separation of powers and rigorous
statutory interpretation to bar overbroad application
of criminal statutes. See Kelly, 140 S. Ct. at 1572
(holding wire fraud statute could not extend to
schemes with objects not encompassed within the

18

statutory text); Marinello, 138 S. Ct. at 1109
(adopting limiting construction of obstruction statute
to require "a 'nexus' between the defendant's conduct
and a particular administrative proceeding");
McDonnell v. United States, 136 S. Ct. 2355, 2372
(2016) (limiting scope of official acts captured by
federal bribery statute); Skilling, 561 U.S. 408-09
(adopting "limiting construction" of honest services
fraud to restrict actus reus); Cleveland v. United
States, 531 U.S. at 26-27 (unanimously holding that
mail fraud statute did not extend to an effort to obtain
regulatory licenses through fraud).
Like the statutes this Court interpreted in
those cases, lower courts have interpreted and
applied Section 371 expansively with no clear limiting
principles. As noted above, the "words 'to defraud'
commonly refer 'to wronging one in his property
rights by dishonest methods or schemes,' and 'usually
signify the deprivation of something of value by trick,
deceit, chicane or overreaching."' McNally, 483 U.S.
at 358 (quoting Hammerschmidt, 265 U.S. at 188);
Coplan, 703 F.3d at 59; see also Hirsch, 100 U.S. at
35. Yet Klein went well beyond this definition to
attach liability under the defraud clause for all
dishonest or obstructive conduct with respect to the
government, whether or not deprivation of money or
property is its object.
In Kelly v. United States, this Court addressed
a similar question in the context of the mail and wire
fraud statutes. There, the government prosecuted

19

two former aides to then-Governor Christie of New
Jersey on a theory that their decisions to realign
traffic lanes for politically motivated reasons
constituted a scheme to defraud the government of
money or property.
Declining to adopt the
government's expansive view of money or property for
the purposes of the mail and wire fraud statutes, the
Court concluded that the defendants' conduct did not
violate those laws. Kelly, 140 S. Ct. at 1574.
In a succinctly reasoned opinion, the Court
found that the mail and wire fraud statutes could not
extend to "all acts of dishonesty," id. at 1571—which
in substance is precisely how Klein extends the
defraud clause of Section 371. As in Kelly, permitting
the construction of Section 371 proffered by the
government (and adopted by the Eighth Circuit)
would criminalize behavior that at worst is dishonest
or undertaken for "bad reasons," id. at 1573, without
being fraudulent as that term is properly understood.
Indeed, as described above, almost anything that
makes the IRS's job more difficult potentially falls
within the scope of the Klein doctrine, inviting the
same prosecutorial overreach of concern in Kelly. Cf.
Arthur Andersen LLP v. United States, 544 U.S. 696,
707 (2005) (noting, in reversing erroneous jury
instruction on obstruction/tampering charge, broad
range of innocuous conduct captured by the term
"impede").
Kelly's holding was properly based on the text
of the mail and wire fraud statutes, rather than a

20

generalized analysis of Congressional intent. 140 S.
Ct. at 1571. Its reasoning should also limit
prosecutions under the defraud clause of Section 371
even though the statute does not contain the words
"money or property."
The mail and wire fraud statutes proscribe
"any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
pretenses." 18 U.S.C. §§ 1341, 1343. The disjunctive
"or" —between "defraud" and "for obtaining money or
property"—could be read to create two distinct
offenses: a generalized scheme to defraud, with no
specified object, and a scheme to obtain money or
property by false pretenses. But, as Kelly reaffirmed,
this Court has long limited this statutory language to
schemes directed at money or property. See Kelly, 140
S. Ct. at 1571 (citing McNally, 483 U.S. at 358). And
that is not because the statute contains the words
"money or property."
Rather, in McNally, the Court examined the
history of the mail fraud statute and noted that while
it had initially only criminalized "any scheme or
artifice to defraud," the offense described was
construed as protecting property rights. 483 U.S. at
356-58. In 1909, Congress amended the statute to
include the words "or for obtaining money or property
by means of false or fraudulent pretenses,
representations, or promises." Id. at 357. The
McNally Court, however, held that this amendment
did not create a separate offense, but rather reflected

21

the commonly understood (i.e., common-law)
definition of "fraud" as directed at obtaining money or
property. Id. at 358-60. The same logic applies to
Section 371's defraud clause.
E.
The Court Should Grant Certiorari
To Adopt A Limiting Construction Of
Section 371's Defraud Clause.
In situations where statutory text or the
dominant construction are susceptible to abuse, this
Court does not rely on prosecutorial discretion to
safeguard the public. McDonnell, 136 S. Ct. at 237273 ("[W]e cannot construe a criminal statute on the
assumption that the Government will use it
responsibly.") (internal quotation marks and citation
omitted); Marinello, 138 S. Ct. at 1108-09 ("[T]o rely
upon prosecutorial discretion to narrow the otherwise
wide-ranging scope of a criminal statute's highly
abstract general statutory language places great
power in the hands of the prosecutor."). Rather, in
such cases, "[i]t has long been [this Court's]
practice . . . before striking a federal statute as
impermissibly vague, to consider whether the
prescription is amenable to a limiting construction."
Skilling, 561 U.S. at 405.
Applying this precedent, the Court should trim
Section 371 "to its core," id. at 404, by applying the
same interpretation of "defraud" that it has in other
cases. Thus, consistent with the term's meaning at
common law, this Court should mandate that

22

conspiracies to defraud must encompass a scheme to
deprive the government of money or a property right
by deceitful means. See McNally, 483. U.S. at 358;
Coplan, 703 F.3d at 59.
This result also is required by the rule of lenity.
Indeed, in United States v. Tanner, the Court rejected
the government's argument that Section 371 should
be read broadly to reach conspiracies to defraud
government contractors as well as government
agencies, on the grounds that the rule of lenity did not
permit that reading where the plain text did not
support it. 483 U.S. 107, 131-32 (1987). As in
Tanner, the Court should decline to define the actus
reus of this offense beyond what the statutory text
reasonably can sustain.
Even if the Court concludes that the term
"defraud" can reasonably be extended to conduct
beyond conspiracies to obtain money or property from
the government, it should adopt a limiting
construction consistent with its ruling in Marinello.
In that case, the Court considered a challenge by a
taxpayer to the broad sweep of Title 26, United States
Code, Section 7212(a)'s "omnibus clause," which
prohibits "obstruct[ing] or imped[ing], or
endeavor[ing] to obstruct or impede, the due
administration of [the Internal Revenue Code]." Id.;
see 138 S. Ct. at 1105. The Court catalogued the ways
in which this language would permit expansion of
criminal liability to ordinary and innocuous conduct,
and ruled that to ensure "deference to the

23

prerogatives of Congress . . . and that a fair warning
should be given to the world . . . of what the law
intends to do if a certain line is passed," the statute
required a limiting construction to preserve its
constitutionality: proof of a "nexus between the
defendant's conduct and a particular administrative
proceeding." Id. at 1106, 1109 (quotation marks and
citation omitted). The Court did so mindful of the
same common-sense principle applicable here: "Had
Congress intended [to criminalize a broader range of
behavior], it would have spoken with more clarity
than it did." Id. at 1108.
In this case, as Petitioner notes, Pet. 28-29, the
indictment alleged that the defendant had conspired
to "defraud the United States by deceitful and
dishonest means by impeding, impairing, obstructing,
and defeating the lawful governmental functions of
the Internal Revenue Service . . . in the
ascertainment, computation, assessment, and
collection of revenue." App. 45a (emphasis added).
The reference to the acts of "obstructing" or
"impeding" the IRS mirrors the same language that
this Court held to be overly expansive in Marinello,
necessitating that it be limited to cases where there is
a particular proceeding to impede or obstruct.
A similar limiting construction could be applied
to Section 371's defraud clause so that the acts
underlying the conspiracy must either be directed at
defrauding the government out of money or property
or, at a minimum, implicate a specific proceeding (e.g.,

24

an examination or investigation) as opposed to the
administration of government or the tax code
generally. Otherwise, prosecutors who are now
limited in their use of Section 7212(a) could, where
the conduct at issue involved two or more persons,
evade Marinello by charging the defendant with a
Klein conspiracy count under Section 371.
II.

The Doctrine Of Stare Decisis Does Not
Bar Review Of The Klein Conspiracy
Doctrine.

This Court considers several factors "that
should be taken into account in deciding whether to
overrule a past decision," including "the quality of
[the decision]'s reasoning, the workability of the rule
it established, its consistency with other related
decisions [and] developments since the decision was
handed down, and reliance on the decision." Janus,
138 S. Ct. at 2478-79. While it is far from clear that
Hammerschmidt is binding precedent of this Court on
the question presented here, accepting arguendo that
the Second and Eighth Circuits are correct that
Hammerschmidt is binding, each of the factors
considered in Janus favors overruling of that decision.
First, for the reasons described above,
Hammerschmidt's reasoning fails to conform to
current standards of statutory interpretation and
fails basic tests of constitutionality. Second, in
establishing no intelligible limits on the scope of the
defraud clause, the Klein doctrine, which is

25

predicated on Hammerschmidt, fails to establish a
workable rule, instead falling upon the "vagueness
shoal," Skilling, 561 U.S. at 368. Third, the reading
of Hammerschmidt adopted by the Circuit Courts of
Appeals is inconsistent with this Court's subsequent
jurisprudence with respect to fraud and obstruction
offenses, and has become an unjustified "outlier" and
"anomaly," Janus, 138 S. Ct. at 2482, 2483. And
finally, especially in light of the rule of lenity, there is
no valid reliance interest in allowing the government
to continue prosecuting people whose conduct does
not fall within the statutory text.

*
There is no meaningful limitation on Section
371's scope if, as the Eighth Circuit and others have
concluded, the defraud clause covers conduct that
simply makes the IRS or another federal agency's job
harder, irrespective of whether that conduct was
intended to deceive or obstruct a specific proceeding
or defraud the government of money or property. The
Eighth Circuit's decision invites prosecutors to abuse
their power and risks exactly the arbitrary
enforcement that the vagueness doctrine is designed
to prevent, "raising the specter of potentially charging
everybody . . . and seeing what sticks and who flips."
Ocasio v. United States, 136 S. Ct. 1423, 1445 (2016)
(Sotomayor, J., dissenting).
At best for the government, Section 371 is a
provision "that can linguistically be interpreted to be

26

either a meat axe or a scalpel." United States v. Sun—
Diamond Growers of Cal., 526 U.S. 398, 412 (1999).
In keeping with principles of due process, statutory
interpretation, and the rule of lenity, it "should
reasonably be taken to be the latter," id., and thus
subject to a limiting construction.
CONCLUSION
For the foregoing reasons and those stated in
the petition, the petition for a writ of certiorari should
be granted.
Dated: March 19, 2021
Respectfully submitted,
JEREMY H. TEMKIN
A. DENNIS DILLON
MORVILLO ABRAMOWITZ
GRAND JASON &
ANELLO P.C.
565 Fifth Avenue
New York, NY 10017
(212) 856-9600
jtemkin@maglaw.com

HARRY SANDICK
Counsel of Record
PATTERSON BELKNAP
WEBB & TYLER LLP
1133 Avenue of the
Americas
New York, NY 10036
(212) 336-2000
hsandick@pbwt.com
Counsel for Amicus Curiae
New York Council of
Defense Lawyers

